                                                OFFICE OF INSPECTOR GENERAL
                                                                               MEMORANDUM




DATE:          April 26, 2010

TO:            Steven VanRoekel, Managing Director

FROM:          David L. Hunt, Acting Inspector General

SUBJECT:       Report on the Audit of the FCC’s Electronic Travel System

The Office of Inspector General is providing the report on the Performance Audit of the FCC’s
electronic travel system (E2 Solutions). The Office of Inspector General engaged Williams
Adley & Company, LLP to conduct the audit. The scope of the audit included Fiscal Years 2008
and 2009. The audit objectives were to:

   1.	 Evaluate the design and implementation of internal controls.

   2.	 Determine if the system meets the requirements of the E-Government Act of 2002 and
       has been effectively implemented as required by the Federal Travel Regulation.

   3.	 Determine if the system is compliant with the Financial Systems Integration Office
       (FSIO) Travel System Requirements (JFMIP-SR-99-9, July 1999).

   4.	 Determine if the system has been fully implemented, is being used effectively and
       efficiently for managing FCC travel, and whether the FCC is realizing all of the benefits
       of the electronic system (e.g., streamlined processing, faster payments, less time to
       prepare travel documents, make travel arrangements, and file travel claims).

The audit report identified four findings related to internal controls over the FCC’s Electronic
Travel System:

   1.	 FCC is not fully utilizing the system’s capabilities to meet mandatory FSIO functional
       requirements.

   2.	 The account management process needs to be improved.

   3.	 The system computed an inaccurate Privately Owned Vehicle reimbursement mileage
       expense for two (2) travel documents.
      4.	 The FCC is not achieving the expected efficiencies from the electronic travel system
          because FCC’s manual intensive travel processes have not been modified to fully
          integrate with the functionality of E2 Solutions.

Management generally concurred with the auditor’s findings and their recommendations for
corrective actions and agreed to implement additional procedures to encourage broader use of
the capabilities of FCC’s Electronic Travel System.

Williams Adley & Company, LLP is wholly responsible for the enclosed report dated
April 21, 2010.




Attachment

cc:      Mark Stephens, Chief Financial Officer




                                                  2

April 21, 2010

Mr. David L. Hunt
Acting Inspector General
Office of Inspector General
Federal Communications Commission
445 12th Street SW
Room 2-C762
Washington, DC 20554

Dear Mr. Hunt:

Williams, Adley & Company, LLP (Williams Adley) completed a performance audit of
the Federal Communications Commission’s (FCC) electronic travel system (E² Solutions)
and internal controls for fiscal years ending September 30, 2008 and September 30, 2009
on behalf of the FCC Office of Inspector General (OIG). The audit was performed under
Purchase Order No. 9000691 dated September 28, 2009.

This report presents the audit results and recommendations to help improve internal
controls over E² Solutions and compliance with Financial Systems Integration Office
(FSIO) Travel System Requirements, and to ensure effective and efficient use of E²
Solutions. Also, included in this report are management’s responses to the findings and
our evaluations of their responses.

We conducted our audit in accordance with applicable Government Accountability Office
(GAO) Government Auditing Standards (GAGAS), July 2007 Revision. The audit was a
performance audit as defined by Chapter 1 of GAGAS. The audit included an assessment
of E2 Solutions system functionality and compliance with FSIO requirements for a
federal electronic travel system.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of further assistance, please contact either Robert Fulkerson or
Ben Nakhavanit at (202) 371-1397.


Sincerely,

Williams, Adley & Company, LLP




Kola Isiaq, CPA

Managing Partner


1250 H Street, NW, Suite 1150 � Washington, DC 20005 � (202) 371-1397 � Fax: (202) 371-9161
        Performance Audit of the
Federal Communications Commission’s
       Electronic Travel System
       Fiscal Years 2008 and 2009




            Date: April 21, 2010
                                                         Table of Contents 


Executive Summary ... ......................................................................................................................1


Background................ ......................................................................................................................3


Results of Audit .......... ......................................................................................................................4


Finding A - FCC Needs to Fully Integrate E² Solutions Capabilities into the Travel Management


Program ..................... ......................................................................................................................4


Finding B - E2 Solutions Account Management Process Needs Improvement ..................................7


Finding C – E2 Solutions Performed Inaccurate Mileage Expense Calculation .................................9


Finding D – FCC Travel Program Needs to Fully Integrate E2 Solutions to Gain the Anticipated


Efficiencies................. ....................................................................................................................10


Appendix A: Objectives, Scope, and Methodology.........................................................................13


Appendix B: E2 Solutions Process Narrative ..................................................................................15


Appendix C: Management’s Responses to Findings......................................................................19


Appendix D: Acronyms...................................................................................................................21





                                       Performance Audit of FCC Electronic Travel System
Executive Summary
On behalf of the Office of Inspector General (OIG), Williams, Adley & Company, LLP (Williams
Adley) completed a performance audit of the Federal Communications Commission’s (FCC)
electronic travel system (E² Solutions) for fiscal years ending September 30, 2008 and September
30, 2009. The audit was conducted from October 2009 through February 2010.

The objectives of the performance audit were to:

    1)	 Evaluate the design and implementation of internal controls for E2 Solutions.

    2)	 Determine if E2 Solutions meets the requirements of the E-Government Act of 2002 and
        has been effectively implemented as required by the Federal Travel Regulation (FTR).

    3)	 Determine if E2 Solutions is compliant with the Financial Systems Integration Office (FSIO)
        Travel System Requirements (JFMIP-SR-99-9, July 1999).

    4)	 Determine if E2 Solutions has been fully implemented, is being used effectively and
        efficiently for managing FCC travel, and whether the FCC is realizing all of the benefits of
        the electronic system (e.g., streamlined processing, faster payments, less time to prepare
        travel documents, make travel arrangements, and file travel claims).

We conclude that E2 Solutions has not been fully implemented to effectively and efficiently manage
FCC travel. Also, E2 Solutions, as implemented, does not substantially comply with the FSIO
Travel System Requirements.

Based on the audit test results, we identified four (4) findings:

    A)	 FCC was not fully utilizing E2 Solutions capabilities to meet mandatory FSIO functional
        requirements. Specifically, E2 Solutions did not check for funds availability, maintain and
        report travel obligation and liquidation (payment) information for use by management,
        provide the system administration functions to define and document approving officials and
        delegated authority, establish the capacity to use electronic signatures, gather and analyze
        usage statistics, and process local travel documents.

    B)	 The E2 Solutions account management process can be improved. We noted one user
        account that was shared by multiple individuals within the Office of the Managing Director,
        Travel Operations Group (TOG). Additionally, 11 of 16 E2 Solutions user accounts of
        separated employees that we tested were still active as of December 29, 2009, and E 2
        Solutions user account access was not reviewed on a periodic basis to remove agency
        separated employee accounts.

    C) E2 Solutions sometimes computed an inaccurate Privately Owned Vehicle reimbursement.
       For a sample of 20 travel documents with Privately Owned Vehicle mileage expense, E2
       Solutions computed an inaccurate Privately Owned Vehicle reimbursement mileage
       expense for two (2) travel documents.


                           Performance Audit of FCC Electronic Travel System
                                                 1
    D) FCC is not achieving the expected efficiencies from E2 Solutions because FCC’s manually
       intensive travel processes have not been modified to fully integrate with the functionality of
       E2 Solutions. The traveler or travel arranger prepares the information for the travel
       document form using Excel spreadsheets or enters information into an Access database
       before directly entering data into E2 Solutions. Each bureau and office developed its own
       travel budgeting and monitoring process using either an Excel spreadsheet or Access
       database, instead of using the available E2 Solutions reporting features.

Management concurs with all four (4) findings.

Appendix A provides additional details on the objectives, scope, and methodology of this audit.
Appendix B discusses E2 Solutions’ process narrative. Management’s responses are summarized
in the Results of Audit section and detailed in Appendix C.




                          Performance Audit of FCC Electronic Travel System
                                                 2
Background
Williams Adley was contracted by the FCC OIG to conduct a performance audit of E² Solutions and
the related internal controls for fiscal years ending September 30, 2008 and September 30, 2009.
We conducted this performance audit in accordance with Government Auditing Standards, July
2007 Revision.

FCC is an independent federal agency directly responsible to Congress. FCC was established by
the Communications Act of 1934 and is charged with regulating interstate and international
communications by radio, television, wire, satellite, and cable. The FCC's jurisdiction covers the 50
states, the District of Columbia, and U.S. possessions.

The Federal Travel Regulation (FTR) requires government agencies, with a few exceptions, to
deploy and use electronic travel systems to plan and manage official temporary duty travel. The
General Services Administration (GSA) defines the government electronic travel system as a web-
based, end-to-end travel management system to plan, authorize, arrange, process, and manage
official federal travel. The electronic travel system enables travelers and travel arrangers to plan
and make reservations (air, rail, lodging, car rental, etc.) on-line, to prepare travel documents on­
line, and to produce itineraries, issue tickets, and obtain receipts on-line.

To comply with the GSA requirements, FCC contracted with a vendor to use E² Solutions. E²
Solutions is a web-based system that is owned and maintained by Carlson Wagonlit Government
Travel. E² Solutions provides a variety of services that an agency may choose to implement. FCC
implemented E² Solutions throughout FCC to include its headquarters and field offices. FCC
business processes use both travel arrangers and the individual traveler to make use of E²
Solutions.

Internally, FCC’s Financial Operations Center (FOC) is responsible for managing employee travel.
Within FOC, the Financial Systems Operations Group is responsible for E2 Solutions system
administration functions, which include establishing user access and traveler profiles. The Office of
Managing Director, Travel Operations Group (TOG) is responsible for reviewing travel input for
accuracy, auditing travel claims, authorizing payments, ordering travel cards, and establishing
travel card profiles. TOG established the Travel Management Center (TMC) group to assist FCC
personnel with travel arrangements.




                          Performance Audit of FCC Electronic Travel System
                                                3
Results of Audit
We conclude that E2 Solutions has not been fully implemented to effectively and efficiently manage
FCC travel. Also, E2 Solutions, as implemented, does not substantially comply with the FSIO
Travel System Requirements. Based on the audit test results, we identified four (4) findings. To
assist FCC management in tracking the findings and recommendations, the recommendations are
numbered sequentially.

Table 1 is a comparative analysis of the mandatory FSIO functional requirements and the extent of
implementation at FCC. The table is described in detail in Appendix B.


Table 1. FSIO Functional Requirements Implemented at FCC

     FSIO Functional         Available for Use        FCC Implemented E2 Solutions
      Requirements          Within E2 Solutions               Component

 General Requirements             Yes                      Yes
 Travel Authorization             Yes                      Partial
 Travel Advances                  Yes                      Not Applicable
 Travel Vouchers                  Yes                      Yes
 Local Travel                     Yes                      No
 Non-Federal Sponsored            Yes                      Not Applicable
 Travel
 Temporary/ Permanent             Yes                      Not Applicable
 Change of Station
 Interface Requirements           Yes                      Partial
 Reports                          Yes                      No
 System Administration            Yes                      Partial
 Records Retention                Yes                      Yes


Finding A - FCC Needs to Fully Integrate E² Solutions Capabilities into the
            Travel Management Program

Condition:

FCC was not fully utilizing E2 Solutions capabilities to meet mandatory FSIO functional
requirements. We did not observe evidence that E² Solutions was configured to the following
functions:

    1) Provide a check for funds availability.

    2) Maintain and report travel obligation and liquidation information for use by management.




                           Performance Audit of FCC Electronic Travel System
                                                  4
    3)	 Provide the system administration functions to establish and maintain system tables that
        include approving officials and delegated authority, establish the capacity to use electronic
        signatures, and gather and analyze usage statistics.

    4)	 Process local travel documents. (FCC is currently using paper documents to process local
        travel documents [Form 1164].)

Criteria:

FSIO Travel System Requirements (JFMIP-SR-99-9, dated July 1999) states:

    1)	 Travel Authorization: “The system must provide for verification that authorization exists
        and that funds are available.”

    2)	 Reports: “The system must maintain and report travel obligation and liquidation

        information.”


    3)	 System Administration: “System administration provides centralized control and

        administration of the travel system. This function must:


            �	 Provide the capability to establish and maintain the following tables that include, at
               a minimum:

                     �	 Approving Officials:

                             �	 Organization/Funding

                             �	 Delegated Authority

            �	 Provide for establishing capability to use electronic signatures.

            �	 Provide for gathering and analyzing usage statistics.”

    4)	 Local Travel: “Local travel expenses, including taxi and mass transit fares, are allowable
        expenses incurred while performing official business within the vicinity of an employee’s
        designated post of duty. The travel system should provide the capability for users to
        produce a local travel voucher by entering selected data into the system to activate an
        obligation and payment of local travel.”




                          Performance Audit of FCC Electronic Travel System
                                                5
Causes:

   1)	 E2 Solutions and Federal Financial System (FFS), FCC’s accounting system of record, do
       not interface to permit automatic confirmation of funds availability. Authorizing officials
       verify travel funds availability, outstanding travel obligations, and liquidation amounts using
       FFS, instead of E2 Solutions.

    2)	 FCC approving officials manually authorize travel documents rather than using E 2
        Solutions’ automated capabilities. Additionally, FCC has not implemented and updated E 2
        Solutions tables with system administration duties and requirements, as well as authorizing
        officials’ names to permit electronic approval of initial travel requests and travelers’
        expenses.

    3)	 When E2 Solutions was initially implemented, not all functions were configured.

    4)	 FCC management has not required the use of automated features within E2 Solutions to
        process local travel documents.

Effects:

   1)	 There is an increased risk that submitted travel documents may exceed available funding.

   2)	 Limited reporting from E2 Solutions may result in reducing the system’s usefulness for
       planning, budgeting, and estimating costs. Management decisions may be based on
       limited FFS information.

    3)	 The lack of clearly identified approving officials, delegated authority, and electronic

        signatures creates inefficiencies in the travel document authorization process.


    4)	 FCC may incur unnecessary expenses in processing local travel claims outside of E2
        Solutions.

Recommendations:

We recommend the Chief Financial Officer:

   1)	 Evaluate the functional capability of E2 Solutions to check for funds availability and

       integrate the system with the new core financial management system.


    2)	 Evaluate the functional capability of E2 Solutions to report travel obligation and liquidation
        information and provide such information to managers.

    3)	 Evaluate the use of electronic signatures and implement approval of travel documents
        using electronic signatures for approving officials and delegated authorities.



                           Performance Audit of FCC Electronic Travel System
                                                 6
    4)	 Re-examine the local travel process to implement a cost effective mechanism for

        processing for local travel reimbursement payments through E2 Solutions.


Management’s Response:

FCC management concurs. FCC management began work to fully integrate E2 Solutions
capabilities into the travel management program. Specifically, FCC management is working with
the system integrators (vendors) of the new core financial management system and the E2
Solutions vendor on the interface plan to address the above recommendations. Also, FCC
management is examining the process to use electronic signatures to approve all travel
documents.

Evaluation of Management’s Response:

We consider management’s response to be adequate to address the finding.

Finding B - E2 Solutions Account Management Process Needs Improvement
Condition:

E2 Solutions account management process can be improved. Specifically, we noted:

    1)	 The group authorizing travel documents in the Office of the Managing Director, Travel
        Operations Group was using one (1) shared user account and password to log-on to E 2
        Solutions. Three (3) users shared the account.

    2)	 Eleven of 16 E2 Solutions user accounts of separated employees that we tested were still
        active as of December 29, 2009. The accounts were active more than 60 days after the
        employees were separated from the FCC. Also, E2 Solutions user account access was not
        reviewed by anyone at the FCC on a periodic basis to remove agency separated employee
        accounts.

Criteria:

FCC Directive 1479.3 (FCC Information Security Program) contains the following relevant criteria:

    1)	 Section 13 User Accountability states, “Each user shall have a unique individually

        assigned user ID and user-assigned log-on password.”


    2)	 Section 19 Information Security Management states that management must:

             �	 “Review, on a regularly recurring basis, lists of users and their associated network
                or system access privileges. These reviews will be the basis for requesting
                security administrators to modify user access levels, including removal of access



                          Performance Audit of FCC Electronic Travel System
                                               7
                 for individuals because of changes in job responsibilities, transfers to other
                 functional bureaus/offices or changes in employment status such as termination,
                 retirement, etc.”

National Institute of Standards & Technology (NIST) Special Publication (SP) 800-53 (revision 3
dated August 2009), AC-2 Account Management requires that the organization manages
information system accounts to include:

    1)	 Establishing, activating, modifying, disabling, and removing accounts.

    2)	 Reviewing accounts based on the organization’s defined frequency.

Causes:

    1)	 FCC management did not require unique E2 Solutions accounts, which include user and
        administrator accounts.

    2)	 FCC Directive 1479.3 does not state the required time frame to disable or remove

        separated employees.


Effects:

Without log-on credentials that uniquely identify and authenticate users, user activities cannot be
attributed to an individual. Thus, both accountability and auditability of actions performed under the
user account is lost.

In addition, user accounts for individuals separated from the agency can be used to log-on and
perform unauthorized travel transactions. E2 Solutions, in fact, is a web-based application that can
be accessed from the internet.

Recommendations:

We recommend the Chief Financial Officer:

    5)	 Assign unique accounts and passwords to all users.

    6)	 Perform a review of E² Solutions user accounts access on at least a quarterly basis.
        Disable or remove in a timely manner E² Solutions accounts for separated employees.

Management’s Response:

FCC management concurs. They will ensure that all E² Solutions users are issued unique
accounts and passwords. Additionally, FCC management will disable or remove in a timely
manner user accounts that are no longer needed.



                          Performance Audit of FCC Electronic Travel System
                                                8
Evaluation of Management’s Response:

We consider management’s response to be adequate to address the finding.

Finding C – E2 Solutions Performed Inaccurate Mileage Expense Calculation

Condition:

For a sample of 20 travel documents with Privately Owned Vehicle mileage expense, we found that
E2 Solutions computed an inaccurate Privately Owned Vehicle mileage expense for two (2) travel
documents:

    1)	 For one travel document, we re-calculated the mileage reimbursement as $9.90 (18 miles
        at $0.55 per mile, the GSA Privately Owned Vehicle mileage reimbursement rate), but the
        amount reported by E2 Solutions for reimbursable mileage expense was calculated as
        $9.79. The submission date of the expense report was July 21, 2009 with a payment date
        of August 10, 2009. Travel occurred between May 27 and May 30, 2009.

    2)	 For another travel document, we noted an incorrect mileage reimbursement rate was used
        to calculate the reimbursement to the traveler. E2 Solutions used a mileage
        reimbursement rate of $0.585 per mile to calculate the reimbursement for 35 miles totaling
        $20.48. The correct mileage reimbursement rate of $0.55 per mile issued by GSA on
        January 1, 2009 would have yielded a reimbursement of $19.25 (35 miles at a GSA rate of
        $0.55 per mile). The submission date of the expense report was January 14, 2009 with a
        payment date of January 26, 2009. Travel occurred on January 8, 2009.

Criteria:

FSIO Travel System Requirements (JFMIP-SR-99-9, dated July 1999) states for system
administration the travel system should:

    1)	 “Provide the capability to maintain Privately Owned Vehicle mileage rate/mileage tables.

    2)	 Provide the capability to maintain rules incorporated in the travel system.”

NIST Special Publication 800-53, Revision 2 (December 2007) states, “The organization
authorizes, documents, and controls changes to the information system…Configuration change
control involves the systematic proposal, justification, implementation, test/evaluation, review, and
disposition of changes to the information system, including upgrades and modifications. ”

Cause:

An E2 Solutions software error caused the miscalculation of Privately Owned Vehicle mileage
reimbursement.


                           Performance Audit of FCC Electronic Travel System
                                                9
Effect: 


Miscalculated mileage reimbursement results in incorrect reimbursement to the traveler. Although
the errors that we found were not material in amount, incorrect reimbursements may result in
wasted effort on the part of the travelers and the Travel Operations Group to correct the
underpayment. Overpayment to the traveler could result in waste of government funds. We did
not test the financial impact of the miscalculated mileage reimbursement.

Recommendation:

We recommend the Chief Financial Officer:

    7)	 Formally notify GSA and National Business Center (NBC) of the software error that caused
        the miscalculation. In addition, request a review of the vendor’s testing procedures of
        software changes and test results to ensure the accuracy of E2 Solutions generated
        outputs whenever software changes are made to E2 Solutions. To gain assurance that E2
        Solutions is computing properly, we recommend the CFO reconfirm a sample of E2
        Solutions calculations on a periodic basis (whenever software changes are made to E2
        Solutions) and notify GSA and NBC whenever errors are found.

Management’s Response:

FCC management concurs. FCC management will notify the appropriate parties that own and host
E2 Solutions of these errors to ensure that these types of errors do not take place in the future.

Evaluation of Management’s Response:

We agree with FCC management’s response. Moreover, to gain assurance that E 2 Solutions is
computing properly, we stand by our recommendation that the CFO reconfirm a sample of E2
Solutions calculations on a periodic basis (whenever software changes are made to E2 Solutions).

Finding D – FCC Travel Program Needs to Fully Integrate E2 Solutions to Gain
           the Anticipated Efficiencies
E2 Solutions provides a web-based service that uses travel management practices to reduce the
agency’s travel administration cost. E2 Solutions leverages technology to streamline travel
processes and deliver a trusted, integrated travel management service to government travelers.

Condition:

FCC travel program has not integrated FCC’s manually intensive travel processes with E2 Solutions
automated functionality to achieve the anticipated efficiencies of E2 Solutions.




                         Performance Audit of FCC Electronic Travel System
                                             10
The three (3) FCC bureaus and offices that we observed use a manual intensive travel process
rather than the full electronic capabilities of E2 Solutions to authorize travel, submit and approve
travel expense documents, and obtain management reports to effectively monitor and track travel
funds. The following is a description of the current manual processes in place:

          1)	 The traveler or travel arranger prepares the information for the travel document using
              Excel spreadsheets or enters information into an Access database before directly
              entering data into E2 Solutions. Then the travel arranger or traveler enters the Excel or
              Access data into E2 Solutions. The travel document is printed from E2 Solutions, and a
              supervisor authorizes the form by signing manually, instead of using an electronic
              signature.

          2)	 Each bureau and office develops its own travel budgeting and monitoring process
              using either an Excel spreadsheet or Access database, instead of using available E2
              Solutions reporting features. As discussed in Finding A, the bureaus and offices
              cannot check for funds availability in E2 Solutions.

The Office of the Managing Director, Travel Operations Group uses an Excel spreadsheet to track
travel documents and travel document status when processing reimbursements, rather than use E2
Solutions functionality.

Criteria:

According to Federal Financial Management System Requirements (JFMIP-SR-99-9, July 1999),
the goal of the FSIO requirements is to improve the efficiency of financial management in the
federal government.

Also, according to Federal Travel Regulation §301-50.3, an employee of an agency must use the
E-Gov Travel Service when the agency makes it available.

Causes:

FCC bureaus and offices did not modify their manual travel processes to incorporate full use of E2
Solutions electronic capabilities to authorize travel, submit and approve travel expense documents,
and obtain management reports to effectively monitor and track travel funds. In addition, system
integration processes between E2 Solutions and FFS were not addressed to enable tracking funds
availability through E2 Solutions.

Effect:

FCC may be incurring additional costs by not using the core functionalities of E2 Solutions to
eliminate duplication of effort and to standardize travel management processes and procedures
throughout FCC.




                            Performance Audit of FCC Electronic Travel System
                                                11
Recommendations:

We recommend the Chief Financial Officer in conjunction with FCC travel officials and bureau and
office managers maximize the use of E2 Solutions by:

    8)	 Evaluating the travel processes used at the bureaus and offices to eliminate redundant
        manual processes.

    9)	 Providing additional training and enhancing procedures to use E2 Solutions effectively and
        efficiently and to improve on the use of E2 Solutions reports.

    10) Ensuring the Office of the Managing Director, Travel Operations Group use E2 Solutions
        reports to track travel documents.

Management’s Response:

FCC management concurs. FCC management is committed to continually strengthening the
internal controls of the travel program and to implementing a travel program that is feasible and
cost effective. This commitment includes developing procedures and using technology in a way
that will reduce costs and duplicate-work and improving the accuracy and timeliness of information
for decision making.

Evaluation of Management’s Response:

We consider management’s response to be adequate to address the finding.




                          Performance Audit of FCC Electronic Travel System
                                              12
Appendix A
Objectives, Scope, and Methodology


Objectives

The objectives of the performance audit were to:

        1)	 Evaluate the design and implementation of internal controls for E² Solutions.

        2)	 Determine if E2 Solutions meets the requirements of the E-Government Act of 2002
            and has been effectively implemented as required by the Federal Travel Regulation.

        3)	 Determine if E² Solutions is compliant with the Financial Systems Integration Office
            (FSIO) Travel System Requirements (JFMIP-SR-99-9, July 1999).

        4)	 Determine if E² Solutions has been fully implemented, is being used effectively and
            efficiently for managing FCC travel, and whether the FCC is realizing all of the benefits
            of the electronic system (e.g., streamlined processing, faster payments, less time to
            prepare travel documents, make travel arrangements, and file travel claims).

Scope

The audit scope was for fiscal years 2008 and 2009. It was conducted at FCC headquarters in
Washington, D.C. The fieldwork was conducted from October 2009 through February 2010.

Methodology

To achieve our audit objectives we performed inquiries, analyzed documentation and data,
inspected travel documents (vouchers and authorizations), and inspected system settings.

In addition, we considered the following laws, regulations, and guidelines:

    �	 The American Recovery and Reinvestment Act of 2009

    �	 FCC OIG Policies, Procedures, and Quality Control Procedures

    �	 E-Government Act of 2002 (Public Law 107-347, 44 U.S.C. Ch 36), December 2002

    �	 President’s Management Agenda Fiscal Year 2002 (www.omb.gov)

    �	 OMB Memorandum M-03-18, Implementation Guidance for the E-Government Act
       (www.omb.gov)

    �	 Federal Travel Regulations (www.gsa.gov)

    �	 OMB Circular A-123, Management’s Responsibility for Internal Control (www.omb.gov)

    �	 Federal Information System Controls Audit Manual (FISCAM), February 2009



                          Performance Audit of FCC Electronic Travel System
                                               13
    �   Government Performance Results Act of 1993

    �   Office of Management and Budget (OMB)-Circular No. A-136, June 10, 2009

    �   Appendix III to OMB Circular No. A-130, revised 2000

The audit was conducted in accordance with Government Accountability Office (GAO) Government
Auditing Standards (GAGAS), July 2007 Revision. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

While the audit work was performed and the report was prepared under contract, the audit results
are being reported by the FCC Office of Inspector General to appropriate FCC officials.




                         Performance Audit of FCC Electronic Travel System
                                             14
Appendix B
E2 Solutions Process Narrative


Background Information

General System Description

Carlson Wagonlit owns and operates E2 Solutions, a web-based system. The travel system
program and all traveler data reside on the vendor database in Texas. Carlson Wagonlit is one (1)
of three (3) travel management providers chosen by GSA to support E-Government Travel
Services.

Business Purpose

E2 Solutions provides a FCC-wide, web-based service that uses travel management practices to
consolidate the FCC’s travel administration and minimize its cost. For fiscal years 2008 and 2009,
3,652 and 2,857 travel documents (vouchers), respectively, were submitted and processed in E2
Solutions.

History and Upgrades

E2 Solutions was first operational at the FCC in fiscal year 2006. Since that time, four (4) major
upgrades have been performed along with periodic updates to GSA determined travel rates.
National Business Center (NBC) sends emails of software and configuration updates to FCC.

Contractual Agreements

FCC has a service level agreement with NBC to provide E2 Solutions services. NBC is responsible
for system support and help desk services. NBC has a contract with the vendor, Carlson Wagonlit,
for licensing E2 Solutions to government agencies.

FCC Travel Process with E2 Solutions

Travel Oversight and Monitoring

Travel is managed through each office and bureau. Travel expenses are tracked and monitored at
each office or bureau. Each manager of the office or bureau is given a travel budget to manage.
The management reporting process used for oversight on travel includes obligations and
expenditures. The offices and bureaus use different processes to manage the travel process. We
interviewed management from two (2) offices and a bureau. From these interviews we determined
that an office or bureau employed electronic spreadsheets for tracking travel obligation and
expenditures. Another office developed a Microsoft Access database to track travel obligation and
expenditures. None of the managers interviewed acquired their travel information directly from E2
Solutions. The managers stated since Federal Financial System (FFS), FCC’s core financial
system, is the final system of record that all travel expenses were acquired from FFS. Managers
indicated that generating reports from FFS is not easily performed. Therefore, managers use their
own tracking systems such as the internal spreadsheets to monitor the actual travel costs from
FFS, instead of E2 Solutions reports. Travel procedures specific to the use of E2 Solution varies by


                           Performance Audit of FCC Electronic Travel System
                                               15
office and bureau. One (1) manager provided specific guidelines developed for his office. The
other managers directed us to the FCC general travel policy.

System Administrative Oversight

E2 Solutions system administration is handled by an FCC system administrator and a backup
person. The system administrator coordinates with NBC and the vendor to operate E2 Solutions at
FCC. The administrator’s duties include setting up new accounts and removing accounts from the
system. In addition, the system administrator performs administrative functions to include reporting
and correcting system errors. Also, some of the offices indicated that they receive training from the
administrator when required.

For fiscal year 2009, there were approximately 1330 E2 Solutions user accounts.

Travel Initiation

Travel is initiated by the individual traveler or travel arrangers. A travel arranger is responsible for
arranging travel pending the request from an individual traveler. An individual traveler can enter
information (i.e., flights, hotels) to generate a travel document or have the travel arranger organize
the travel request and enter the travel information into E2 Solutions. However, based on our
interviews with a bureau and two (2) offices, we noted the traveler or travel arranger prepares the
information using either an Excel spreadsheet or Access database. Then the travel arranger or
traveler enters the Excel or Access data into E2 Solutions.

Management Travel Authorization

Management or the approving official responsible for travel oversight performs the travel request
authorization. Fund obligation is performed through FFS, outside of E2 Solutions. A printed travel
document from E2 Solutions is manually delivered to the approving official. The approving official
signs the hard copy travel document after the review of the proposed travel costs is complete.
After the travel document is signed manually, the travel is authorized and the newly created travel
document is manually delivered to the Office of the Managing Director, Travel Operations Group
(TOG).

Submission of Reimbursements

After travel is completed, a traveler either enters the incurred costs directly into E2 Solutions or
sends all receipts to the travel arranger for reimbursement. Either the travel arranger or the
traveler manually attaches the trip receipts to the signed travel document. The travel document
with all attached receipts is sent to TOG for review and approval.

Voucher Processing

Travel document (voucher) processing is manually performed by TOG. TOG verifies and approves
all travel documents. TOG verifies the approved obligated amount for the travel on the signed



                           Performance Audit of FCC Electronic Travel System
                                                 16
travel document and receipts with the individual costs reported through E 2 Solutions. The
obligated amount for the specified trip is printed on the travel document signed by the manager and
used by TOG to verify that expenses reported by the traveler do not exceed the obligated amount
by either more than $100 or ten percent. This verification does not include checking the per diem
rates or checking many of the system-automated rate charges.

Travel Payment

E2 Solutions sends travel cost data to FFS for payment. After the manual verification is performed
by TOG, the travel document is electronically approved through E2 Solutions. Data is collected from
TOG approved travel documents and sent in batch files to FFS at 5:00 PM each business day.
FFS is interfaced with the payroll system. FFS sends data to the payroll system for payment via
the traveler’s paycheck. FFS is maintained by the U.S. Department of the Interior at the National
Business Center in Denver, Colorado.

Mandatory FSIO Functions Implemented

The following table discusses the results of our comparative analysis of E2 Solutions capabilities to
meet the mandatory Financial Systems Integration Office (FSIO) functional requirements and
FCC’s decision to implement or not implement the capability.


  FSIO Functional      Available          FCC                                   Comments
   Requirements         for Use      Implemented E2
                       Within E2        Solutions
                       Solutions       Component

General Requirements   Yes           Yes               E2 Solutions as implemented does not provide for
                                                       appropriate electronic authentication technologies to verify
                                                       the identity of sender and the integrity of the electronic
                                                       content that satisfies OMB’s implementation requirements of
                                                       the Government Paperwork Elimination Act.

Travel Authorization   Yes           Partial           Authorization on the travel document in E 2 Solutions is being
                                                       sent to management for manual approval. Management
                                                       does not employ electronic signature capabilities.

Travel Advances        Yes           Not Applicable    Travel advances are handled through the travel card
                                                       program, not through E2 Solutions.

Travel Vouchers        Yes           Yes               E2 Solutions implementation does not always access the
                                                       correct mileage allowances.

Local Travel           Yes           No                Local travel is processed manually through Standard Form
                                                       1164, not through E2 Solutions.

Non-Federal            Yes           Not Applicable    FCC policy does not allow non-federal sponsored travel.
Sponsored Travel
Temporary/ Permanent   Yes           Not Applicable    Changes of duty station are rarely performed.



                             Performance Audit of FCC Electronic Travel System
                                                  17
Change of Station
Interface               Yes           Partial           E2 Solutions does not check for funds availability.
Requirements
Reports                 Yes           No                Reporting features are not used.

System Administration   Yes           Partial           In addition, FCC has administrative functions such as
                                                        adding/removing users, but testing of user access control
                                                        demonstrated that this action was not consistently
                                                        implemented with separated employees.

                                                        Gathering and providing usage statistics was not provided.
                                                        In addition, there was no evidence provided demonstrating
                                                        that the system administration functions were able to
                                                        establish and maintain system tables that included
                                                        approving officials and delegated authority.

Records Retention       Yes           Yes               Records retention is implemented.




                              Performance Audit of FCC Electronic Travel System
                                                  18
Appendix C
Management’s Responses to Findings




                    Performance Audit of FCC Electronic Travel System
                                        19
Performance Audit of FCC Electronic Travel System
                    20
Appendix D
Acronyms



    FCC      Federal Communications Commission
    FFS      Federal Financial System
    FOC      Financial Operations Center
    FSIO     Financial Systems Integration Office
    FTR      Federal Travel Regulation
    GAO      Government Accountability Office
    GAGAS    Generally Accepted Government Auditing Standards
    GSA      General Services Administration
    NBC      National Business Center
    NFR      Notice of Finding and Recommendation
    NIST     National Institute of Standards & Technology
    OIG      Office of Inspector General
    OMB      Office of Management and Budget
    OMD      Office of Managing Director
    TMC      Travel Management Center
    TOG      Travel Operations Group




              Performance Audit of FCC Electronic Travel System
                                  21
